OIG Audit Report GR-70-06-008

The Office of Justice Programs Bureau of Justice Assistance Grant
 to Delaware Judicial Branch, Wilmington, Delaware

Audit Report GR-70-06-008


April 2006
Office of the Inspector General


Executive Summary





 The Office of the Inspector General, Audit Division, has completed an audit of a state law enforcement discretionary grant (2004-DDBX-1201) that the Office of Justice Programs (OJP), through the Bureau of Justice Assistance (BJA), awarded to the Delaware Judicial Branch (Delaware Judiciary). The goal of the grant is to provide funding for the purchase of software licenses and implementation services associated with deploying a case management system. For this grant, the BJA awarded the Delaware Judiciary a total of $1,781,059. 
 The Delaware Judiciary generally complied with the grant requirements we tested. However, we determined the Delaware Judiciary inappropriately charged this grant for maintenance expenditures not approved by BJA. As a result, we are reporting $298,051in dollar-related findings, which is about 17 percent of total grant funding.1 In addition, the Delaware Judiciary has not developed performance measures to ensure that the case management system, when implemented, will meet the goals and objectives of the project. 
 These findings are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology appear in Appendix I 
 We discussed the results of our audit with Delaware Judiciary officials and have included their comments in the report as applicable. In addition, we requested a response to our draft audit report from the Delaware Judiciary and OJP, and their responses appear in Appendices III and IV. 



Footnote

The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to better use. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for a definition of questioned costs.